OIG Investigative Reports, United States v. Barbara Szczublewski
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
U.S. Department of Justice
United States Attorney
Western District of New York
August 4, 2005
For Information Contact:
138 Delaware Ave.
Buffalo, NY 14202
(716) 843-5814
UNITED STATES v. BARBARA SZCZUBLEWSKI
Acting United States Attorney Kathleen M. Mehltretter announced that Barbara
Szczublewski, 43, of Lancaster, New York, was sentenced yesterday by United
States District Judge William M. Skretny to three months home detention, four
years probation and ordered to make restitution in the amount of $25,394.
Assistant U.S. Attorney Gregory L. Brown stated that on April 6, 2005, Szczublewski
pled guilty to participating in a scheme that falsely consolidated $3.8 million
in defaulted federal student loans and in doing so, earned bonus compensation
from her employer, NCO Financial Systems, Inc, (NCO), located in Getzville,
New York.
To date, two additional defendants, Martina Brown, of Buffalo, New York, and
Melissa McKeever, of Lockport, New York, have pled guilty and have been sentenced
in connection with the scheme.
Investigation disclosed that Ms. Brown, Ms. McKeever, and Szczublewski fraudulently
consolidated $3.8 million in defaulted federal student loans and in doing so,
earned bonus compensation from their employer. According to the plea agreements
signed by the three defendants, they created numerous Direct Loan consolidation
applications in the names of various defaulted federal student loan borrowers,
and forged the signatures of those borrowers on the applications between January
2002 and November 2003.
In furtherance of the scheme, the defendants made fictitious entries into NCO's
computer system, falsely claiming that contact had been made with the borrowers.
The loan consolidation applications made it appear that the defaulted borrowers
had entered into formal repayment agreements. The defaulted borrowers had neither
agreed to, nor authorized NCO to make any such loan consolidation arrangements.
The defendants also changed the permanent addresses of the borrowers in the
NCO collection history system in an attempt to avoid detection.
The United States Department of Education paid compensation in excess of $650,000
to New York Higher Education Services Corporation (NYHESC), the guarantor of
the defaulted federal student loan accounts, on behalf of the fraudulent consolidations.
NYHESC in turn, paid compensation in the excess of $350,000 to NCO.
The plea was the culmination of a joint investigation on the part of the United
States Department of Education, Office of the Inspector General, under the direction
of Inspector General John P. Higgins, Jr., and the Federal Bureau of Investigation,
under the direction of Special Agent in Charge, Peter Ahearn.
Top
Printable view
Share this page
Last Modified: 08/05/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov